               

               

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
               

               



                     Improvements Needed in
                     EPA’s Network Security
                     Monitoring Program
                     Report No. 12-P-0899               September 27, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Rudolph M. Brevard
                                                   Cheryl Reid
                                                   Vincent Campbell
                                                   Neven Soliman
                                                   Kyle Denning




Abbreviations

ASSERT        Automated System Security Evaluation and Remediation Tracking
CERT          Computer Emergency Response Team
CSIRC         Computer Security Incident Response Capability Center
CTS           Customer Technology Solutions
EPA           U.S. Environmental Protection Agency
ISO           Information Security Officer
IT            Information Technology
NCC           National Computer Center
NIST          National Institute of Standards and Technology
OEI           Office of Environmental Information
OIG           Office of Inspector General
OTOP          Office of Technology Operations and Planning
POA&M         Plans of Actions and Milestones
SIEM          Security Incident and Event Management
SP            Special Publication
TISS          Technology and Information Security Staff




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency                                                  12-P-0899
                                                                                                      September 27, 2012
                        Office of Inspector General


                        At a Glance
Why We Did This Review                Improvements Needed in EPA’s
The U.S. Environmental                Network Security Monitoring Program
Protection Agency (EPA) Office
of Inspector General (OIG)             What We Found
conducted this audit to
(1) identify which tools EPA          EPA’s deployment of a Security Incident and Event Management (SIEM) tool did
uses to identify, analyze, and        not comply with EPA’s system life cycle management procedures, which require
resolve cyber-security                planning project activities to include resources needed, schedules, and structured
incidents; (2) identify steps         training sessions. EPA did not develop a comprehensive deployment strategy for
implemented to resolve known          the SIEM tool to incorporate all of EPA’s offices or a formal training program on
weaknesses in its incidence           how to use the tool. When EPA staff are not able to use an information technology
response capabilities; and            investment, the investment has limited value in meeting organizational goals and
(3) evaluate how users report         users’ needs.
security incidents.
                                      EPA does not have a computer security log management policy consistent with
Continually monitoring network        federal requirements. While EPA has a policy governing minimum system auditing
threats through intrusion             activities to be logged, EPA has yet to define a policy for audit log storage and
detection and prevention              disposal requirements along with log management roles and responsibilities. EPA
systems and other mechanisms          risks not having logged data available when needed, and program officials may
is essential. Establishing clear      not implement needed security controls.
procedures for assessing the
current and potential business        EPA did not follow up with staff to confirm whether corrective actions were taken
impact of incidents is critical, as   to address known information security weaknesses. EPA had not taken steps to
is implementing effective             address weaknesses identified from internal reviews as required. Known
methods of collecting,                vulnerabilities that remain unremediated could leave EPA’s information and
analyzing, and reporting data.        assets exposed to unauthorized access.
This report addresses the
                                       Recommendations and Planned Agency Corrective Actions
following EPA Goal or
Cross-Cutting Strategy:
                                      We recommended that the Assistant Administrator for Environmental Information
                                      develop and implement a strategy to incorporate EPA’s headquarters program
 Strengthening EPA’s
                                      offices within the SIEM environment, develop and implement a formal training
  Workforce and Capabilities
                                      program for the SIEM tool, develop a policy or revise the Agency’s Information
                                      Security Policy to comply with audit logging requirements, and require that the
                                      Senior Agency Information Security Officer be addressed on all Office of
                                      Environmental Information security reports and reviews.

                                      Office of Environmental Information officials concurred with and agreed to take
For further information, contact      corrective actions to address all recommendations.
our Office of Congressional and
Public Affairs at (202) 566-2391.      Noteworthy Achievements
The full report is at:                We found that EPA employees are aware of the reporting procedures for when
www.epa.gov/oig/reports/2012/
                                      they experience an information security incident. Additionally, EPA has recently
20120927-12-P-0899.pdf
                                      deployed technical tools to combat cyber-security attacks and conduct forensic
                                      analyses of security activity.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460

                                                                                    THE INSPECTOR GENERAL




                                        September 27, 2012

MEMORANDUM

SUBJECT:               Improvements Needed in EPA’s Network Security Monitoring Program
                       Report No. 12-P-0899


FROM:                  Arthur A. Elkins, Jr.

TO:                    Malcolm D. Jackson
                       Assistant Administrator for Environmental Information and
                       Chief Information Officer


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed-upon
actions, including milestone dates. Recommendations marked unresolved due to a "TBD"
planned completion date require a milestone date. Your response will be posted on the OIG’s
public website, along with our memorandum commenting on your response. Your response
should be provided as an Adobe PDF file that complies with the accessibility requirements of
Section 508 of the Rehabilitation Act of 1973, as amended. The final response should not contain
data that you do not want to be released to the public; if your response contains such data, you
should identify the data for redaction or removal. We have no objections to the further release of
this report to the public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact Patricia Hill, Assistant
Inspector General, Office of Mission Systems, at (202) 566-0894 or hill.patricia@epa.gov; or
Rudolph M. Brevard, Director, Information Resources Management Assessments, at
(202) 566-0893 or brevard.rudy@epa.gov.
Improvements Needed in EPA’s                                                                                                 12-P-0899
Network Security Monitoring Program


                                   Table of Contents
 Chapters
   1     Introduction ........................................................................................................      1

                 Purpose .......................................................................................................    1
                 Background .................................................................................................       1
                 Noteworthy Achievements ...........................................................................                2
                 Scope and Methodology ..............................................................................               2

   2   Security Incident and Event Management Tool Deployment
       Lacks Key Activities ............................................................................................            4

                 Headquarters Offices Need a SIEM Tool Implementation Strategy ............                                        4
                 Training on SIEM Tool’s Utilities Needs Improvements ..............................                               5
                 Recommendations ......................................................................................            6
                 Agency Comments and OIG Evaluation ......................................................                         6

   3     Improvements Needed in EPA’s Computer Security Log
         Management Practices ......................................................................................                7

                 EPA Policy Lacks Some Log Management Requirements..........................                                       7
                 Log Management Infrastructure Lacks Approved Roles and
                   Responsibilities ......................................................................................         8
                 Recommendations ......................................................................................            8
                 Agency Comments and OIG Evaluation ......................................................                         8

   4     EPA Lacks an Oversight Process to Remediate Information
         Security Weaknesses.........................................................................................               9

                 EPA Did Not Address Recommendations From Internal Reviews ..............                                          9
                 National Computer Center Does Not Follow Up on
                   Internally Conducted Network Scans .....................................................                        11
                 Recommendations ......................................................................................            12
                 Agency Comments and OIG Evaluation ......................................................                         12

   Status of Recommendations and Potential Monetary Benefits ..............................                                        13



Appendices
   A     EPA Monitoring Tools Reviewed ......................................................................                      14

   B     Unaddressed Recommendations .....................................................................                         15

   C     Agency Response to Draft Report ....................................................................                      21

   D     Distribution .........................................................................................................    28
                                   Chapter 1
                                    Introduction
Purpose
            We sought to determine:

                  What tools has the U.S. Environmental Protection Agency (EPA)
                   implemented to increase its capability to promptly identify, analyze, and
                   resolve cyber-security incidents against the Agency’s network?
                  What steps has EPA implemented to resolve known weaknesses in its
                   incident response capability?
                  Could EPA make improvements in how users report security incidents?

Background
            A computer security incident is a violation or threat of a violation of computer
            security policies or standard security practices. Computer security-related threats
            have not only increased and become more diverse, but can cause more damage.
            Preventive actions based on risk assessments can lower the number of incidents,
            but not all incidents can be prevented. An incident response capability is needed
            for the quick detection of incidents and to minimize loss and destruction of data,
            mitigate the weaknesses that were exploited, and restore computing services.
            Continual monitoring of threats through intrusion detection and prevention
            systems and other mechanisms is essential. Establishing clear procedures to assess
            current and potential business impacts of incidents is critical, as is putting in place
            effective methods to collect, analyze, and report data.

            The Assistant Administrator for Environmental Information, who is also EPA’s
            Chief Information Officer, is charged under the Federal Information Security
            Management Act with providing leadership to ensure the security of EPA’s
            information technology (IT) resources. The Assistant Administrator for
            Environmental Information designates a Senior Agency Information Security
            Officer, who is responsible for managing Agency compliance with federal
            information security requirements.

            EPA’s Office of Technology Operations and Planning (OTOP), within the Office
            of Environmental Information (OEI), is responsible for the policy, management,
            and implementation of EPA’s IT infrastructure. Within OTOP, Technology and
            Information Security Staff (TISS) are responsible for managing the operation of
            EPA’s IT security program. TISS is responsible for deploying and managing
            EPA’s Security Incident and Event Management (SIEM) tool. SIEM documents
            show that EPA’s information security staff can use the SIEM tool to (1) comply
            with federally required log review and correlation activities, and (2) reduce the


12-P-0899                                                                                        1
            level of effort on administrative staff. TISS acquired a SIEM tool in May 2010.
            TISS documentation indicates that the SIEM tool would be used to perform real-
            time analysis of security alerts to help respond to security attacks faster and create
            log security data and compliance reports.

            During years 2010-2011, EPA invested over $4.1 million in several automated
            tools to strengthen the security of the Agency’s network infrastructure. OEI,
            Region 7, and Region 8 information security personnel manage the tools we
            reviewed. See Appendix A for additional details on these tools.

            EPA uses the Automated System Security Evaluation and Remediation Tracking
            (ASSERT) system to prepare Federal Information Security Management Act
            reports. ASSERT provides systems owners and managers with an understanding
            of the system’s risks, security controls needed to address risks, and a plan of
            actions and milestones to remediate risks.

Noteworthy Achievements

            We found that EPA employees are aware of reporting procedures for when they
            experience an information security incident. OTOP deployed forensic and SIEM
            tools to strengthen EPA network monitoring. OTOP staff indicated that the
            forensic tool could be used to identify rogue executable files on EPA
            workstations. TISS documentation indicated that the SIEM tool performs real-
            time analysis of security alerts, and is available for EPA’s information security
            staff to perform audit logging.

Scope and Methodology

            Our audit work commenced March 2011 and was completed in June 2012. We
            conducted our audit work at EPA headquarters in Washington, DC; National
            Computer Center, Research Triangle Park, North Carolina; Region 7 headquarters
            in Kansas City, Kansas; and Region 8 headquarters in Denver, Colorado. We
            conducted this audit in accordance with generally accepted government auditing
            standards. Those standards require that we plan and perform the audit to obtain
            sufficient, appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our findings and conclusions based on our audit
            objectives.

            We reviewed federal regulations and EPA policies and procedures. We collected
            and reviewed purchase orders and contract agreements, but did not conduct any
            tests to determine whether contractors complied with contract terms and
            conditions. We interviewed EPA headquarters and regional information security
            staff on technical tools used to monitor and analyze network traffic. We obtained
            an understanding of each tool’s use, purpose, cost, and function. We did random



12-P-0899                                                                                        2
            interviews of headquarters and regional staff to assess their knowledge for
            reporting incidents.

            We conducted follow-up on two prior EPA Office of Inspector General (OIG)
            security audits on EPA’s network security monitoring program.

                  In EPA OIG Report No. 2005-P-00011 Security Configuration and
                   Monitoring of EPA’s Remote Access Methods Need Improvement, dated
                   March 22, 2005, we recommended that OTOP develop and implement a
                   security-monitoring program that includes testing all servers.

                  In 2009, we followed up on the above report in EPA OIG Report No.
                   09-P-0240, Project Delays Prevent EPA from Implementing an Agency-
                   wide Information Security Vulnerability Management Program, dated
                   September 21, 2009. We had sought to determine whether the Agency had
                   implemented an Agency-wide network security monitoring program. We
                   concluded that EPA still had not established an Agency-wide network
                   security monitoring program because EPA did not take alternative action
                   when the monitoring project experienced significant delays. Additionally,
                   EPA offices did not regularly evaluate the effectiveness of actions taken to
                   correct identified deficiencies as required by the Office of Management
                   and Budget.




12-P-0899                                                                                     3
                                  Chapter 2
       Security Incident and Event Management Tool
             Deployment Lacks Key Activities
            EPA’s deployment of a SIEM tool did not comply with Agency requirements for
            deploying IT investments. EPA's system life cycle management procedures
            require planning project activities to include resources needed, schedules, and
            structured training sessions. In particular, EPA had not taken steps to ensure the
            successful implementation of the SIEM tool by putting in place processes to
            manage the turnover of key personnel critical to the project's success, making sure
            plans included all EPA offices, ensuring all responsible individuals have access to
            management reports generated by the tool, maintaining communications with
            EPA offices to ensure they were informed of the tool's deployment schedule, and
            providing training so that offices could use the tool once it was implemented in
            their respective offices. Without having such plans in place, EPA risks that the
            SIEM tool would not provide effective network monitoring. When EPA staff are
            not able to use an IT investment, that investment has limited value in meeting
            organizational goals and users’ needs.

Headquarters Offices Need a SIEM Tool Implementation Strategy
       
            TISS lacks a fully developed strategy to include EPA’s headquarters program
            offices within the SIEM’s environment. TISS’s documents showed a strategy that
            included each of EPA’s regional offices within the SIEM’s environment.
            However, efforts to include headquarters program offices fell short due to
            turnover of technical staff and TISS having discontinued meetings with program
            office staff on using the SIEM tool. As such, ten program offices do not have their
            headquarters servers logged by the SIEM tool.

            Although regional information security officers (ISOs) have access to review
            daily log activity and receive daily log reports, ten headquarters ISOs do not have
            access to the SIEM tool or receive the daily reports. Each program office manages
            numerous assets connected to EPA’s network, with some assets containing
            sensitive information such as personally identifiable information. We interviewed
            several headquarters ISOs who expressed interest in using the SIEM tool, but they
            said barriers have hindered the use of the SIEM tool in their office. Specifically,
            they cited a lack of (a) access to the tool, (b) demonstration of the tool’s
            capabilities, and (c) follow-up communication from TISS.

            TISS management stated that bringing devices within the SIEM architecture is
            based on a first-come, first-serve basis. TISS had not developed a strategy that
            included a priority list based on EPA’s mission-critical and business processes.



12-P-0899                                                                                      4
            Such an approach would have provided TISS a systematic approach for including
            each program within the SIEM’s architecture based on the level of risk.

            With a majority of EPA’s program offices not using the SIEM tool to monitor
            security of their assets, the assessment of the security controls associated with log
            reviews and event correlations may not be as efficient and effective compared to
            those EPA offices using the SIEM’s robust technology. Also, headquarters
            program offices do not have access to an automated tool that could provide an
            extra level of analysis to help with recognizing patterns and relationships within
            data that may escape manual analyses.

            TISS provided an updated project plan in February 2012. However, milestone
            dates have not been finalized as to when headquarters program offices will be
            incorporated within the SIEM architecture.

Training on SIEM Tool’s Utilities Needs Improvements

            TISS did not develop a structured training plan to use with the SIEM tool. EPA’s
            system life cycle management procedures require the development of a training
            plan and user manual when training users of new IT investments. The training
            plan should outline objectives, target audience, strategies, and curriculum.

            TISS conducted informal training sessions with EPA’s regional ISOs to address
            questions on tool usage and how to generate reports. Those sessions did not include
            written agendas or discussion topics. Regional ISOs said that the training sessions
            needed more emphasis on how the SIEM tool could be used to perform detailed
            security analyses. Further, headquarters ISOs were not aware of the training
            sessions. TISS said the training sessions were stopped due to staff changes.

            TISS also sends daily SIEM reports to EPA’s ISOs for review and analysis.
            However, EPA’s ISOs stated the files were too large to perform detailed analyses
            and were limited to spreadsheet queries. Some ISOs said they want to be able to
            filter the log data by event type. The ISOs can create custom reports if they know
            programming language. TISS had not created a user guide on how to generate
            security reports, which the ISOs stated would be of immense value in obtaining
            hands-on experience with the SIEM tool.

            Without a structured training curriculum, users’ needs are not being met and the
            continued use of the SIEM tool by EPA’s information security staff will be of
            limited value in performing information security activities.




12-P-0899                                                                                       5
Recommendations
            We recommend that the Assistant Administrator for Environmental Information:

               1. Develop and implement a strategy with milestone dates to incorporate
                  EPA’s headquarters program offices within the SIEM environment.  
                    
               2. Develop and implement a formal training program that will meet EPA’s
                  information security staff needs in using the SIEM tool. The training
                  program should include a user guide on using the SIEM tool to generate
                  reports and developing customized reports for filtering known and
                  suspicious events. 

Agency Comments and OIG Evaluation
            OEI officials concurred with and agreed to take corrective actions to address all
            recommendations. We believe these corrective actions, when implemented, will
            address the intent of our recommendations.

            Appendix C contains the Agency’s complete response to the report.




12-P-0899                                                                                       6
                                  Chapter 3
           Improvements Needed in EPA’s
      Computer Security Log Management Practices
            EPA does not have a computer security log management policy that complies
            with federal requirements. While EPA has a policy governing minimum system
            auditing activities to be logged, EPA has yet to define a policy for audit log
            storage and disposal requirements. EPA recently implemented its SIEM tool.
            However, the Agency has yet to finalize its guidance to govern the roles and
            responsibilities for the log management infrastructure. The National Institute of
            Standards and Technology (NIST) requires agencies to define mandatory
            requirements for these activities. Without activity definitions, EPA risks logged
            data not being available when needed for event analysis. Furthermore, without
            clearly defined roles and responsibilities for the log management infrastructure,
            EPA risks having program office officials responsible for securing their systems
            not implement needed security controls for log management.

EPA Policy Lacks Some Log Management Requirements
            Three sites visited had audit logging procedures, but none of the sites had
            consistent procedures. For example, one site’s procedures did not include
            requirements for proper log storage and disposal, while the other sites had
            inconsistent storage and disposal procedures. NIST Special Publication (SP)
            800-92, “Guide to Computer Security Log Management,” dated September 2006,
            states that an organization should develop policies that clearly define mandatory
            requirements for log management activities including log generation, log storage
            and disposal, and log analysis.

            EPA offices defined and implemented their own respective logging procedures
            because the Agency’s policy does not define mandatory audit logging
            requirements. EPA issued an Interim Agency Information Security Policy in April
            2012 to supersede its Agency Network Security Policy, however this policy still
            does not address key log management elements such as proper log storage and
            disposal. The lack of a clearly defined audit logging policy could lead additional
            EPA offices to create inconsistent logging practices across the Agency, and may
            jeopardize the availability of EPA’s logging information when needed for
            investigating suspicious activity that may not be monitored by the SIEM tool.




12-P-0899                                                                                       7
Log Management Infrastructure Lacks Approved Roles and
Responsibilities
            While EPA defined the roles and responsibilities for the SIEM infrastructure
            within the draft “Enterprise Reference Guide” dated June 2011, the Agency has
            yet to finalize these requirements. NIST SP 800-92 states that as part of the log
            management planning process, an organization should define the roles and
            responsibilities of individuals and teams expected to be involved in log
            management.

            We found that EPA had not developed a policy to define the roles and
            responsibilities for log management. We believe that the lack of a policy to
            reinforce how EPA would use the SIEM infrastructure to comply with the log
            review requirements of NIST SP 800-53, “Recommended Security Controls for
            Federal Information Systems,” contributed to the issues identified in chapter 2 of
            this report. Furthermore, EPA intended the SIEM tool to be used to provide
            information beyond what is required to meet basic NIST SP 800-53 log review
            requirements. Without a clearly defined policy outlining respective roles within
            the log management infrastructure, the SIEM tool may not meet its intended
            purpose.

Recommendations
            We recommend that the Assistant Administrator for Environmental Information:

               3. Develop a policy or revise the Agency’s Information Security Policy to
                  comply with NIST SP 800-92. This policy should include, but not be
                  limited to, defining log storage and disposal requirements and roles and
                  responsibilities for the log management infrastructure.

               4. Finalize the SIEM tool’s “Enterprise Reference Guide.”  

Agency Comments and OIG Evaluation
            OEI officials concurred with and agreed to take corrective actions to address all
            recommendations. We believe these corrective actions, when implemented, will
            address the intent of our recommendations. OEI officials also listed “TBD” (to be
            determined) for the planned completion date for recommendation 3. We list the
            status of this recommendation as unresolved. In our transmittal memorandum, we
            request OEI officials to provide milestone dates in the 90-day response.

            Appendix C contains the Agency’s complete response to the report.




12-P-0899                                                                                        8
                                   Chapter 4
      EPA Lacks an Oversight Process to Remediate
           Information Security Weaknesses
            EPA did not follow up with staff to confirm that corrective actions were taken to
            address known information security weaknesses. EPA had not addressed
            weaknesses identified by internal reviews. Office of Management and Budget
            Circular A-123, “Management Accountability and Control,” states managers are
            responsible for taking timely and effective actions to correct identified
            deficiencies. OEI, which is responsible for securing EPA’s network from internal
            and external exploits, has not developed a process to verify that known
            weaknesses have been addressed. As a result, known vulnerabilities remained
            unremediated and key steps to resolve those weaknesses remain unaddressed,
            which could leave EPA information exposed to unauthorized access.

EPA Did Not Address Recommendations From Internal Reviews
            From 2009 to 2010, three internal reviews were conducted on EPA’s information
            security program. EPA prepared an internal document titled “Clampi Infection
            Lessons Learned Document” that summarized EPA’s response to a Trojan horse
            infection. A Trojan horse is a computer program that is hiding a virus or other
            potentially damaging program. A Trojan horse can be a program that purports to
            do one action when, in fact, it is performing a malicious action on a computer.
            Trojan horses can be included in software that is downloaded for free or as
            attachments in email messages. EPA contracted with the Computer Emergency
            Response Team (CERT) Program at the Carnegie Mellon University’s Software
            Engineering Institute and with Booz Allen Hamilton to conduct separate reviews
            of EPA’s information security program. We found proper points of contacts were
            difficult to obtain and plans of actions and milestones (POA&Ms) were either not
            created or were not created until our audit was underway. EPA’s POA&Ms
            procedures state that any IT security finding and recommendation from reviews,
            audits, assessments, tests, or other sources (including but not limited to incidents),
            must be analyzed and categorized as to the level of risk (high, medium, low) and a
            determination made for appropriate action to be taken for the weaknesses
            identified. Table 1 identifies the names of the reports and the number of
            recommendations reviewed, not addressed, and without POA&Ms.




12-P-0899                                                                                       9
Table 1: Three internal reports reviewed with status of recommendations
                                                                      No. of                   No. of
                                           No. of report        recommendations          recommendations
  Title of Agency internal review       recommendations           not addressed           without POA&Ms
 Clampi Infection Lessons                        53                         6                        7
 Learned
 Carnegie Mellon                                 31                       17                       31
 Booz Allen Hamilton                             19                        0                       19
 Totals                                         103                       23                       57
Source: Clampi Infection Lessons Learned document, Carnegie Mellon report, and Booz Allen Hamilton report. OIG-
generated.



                 The Clampi Infection Lessons Learned document resulted from a Trojan horse
                 infection that occurred within EPA in July 2009. Based on meetings with EPA, we
                 found that there was no central point of contact responsible to ensure EPA staff
                 addressed each recommendation. In some cases, EPA staff could not provide any
                 evidence on how the issues and recommendations were addressed. We also found
                 that some recommendations were not addressed and, in some cases, POA&Ms were
                 created after we started fieldwork, or 2 years after the Clampi Infection occurred.
                  
                 The Carnegie Mellon report, issued in August 2009, appraised six areas within
                 EPA’s information security program using the CERT Resiliency Engineering
                 Framework. We found that EPA’s management had neither taken corrective
                 actions nor created POA&Ms to address the findings. As a result of our findings,
                 TISS developed a strategic plan covering fiscal years 2011 through 2016 to
                 manage the report’s findings. We found that the strategic plan addressed sections
                 of the report except for issues on global strengths and weaknesses. We also found
                 that POA&Ms were not created for other areas reviewed.

                 The Booz Allen Hamilton document, issued in August 2010, identified
                 procedural and operational deficiencies with EPA’s incident handling capabilities
                 when dealing with Advanced Persistent Threats. These threats are adversaries
                 who can bypass virtually all of today’s best practices and have the ability to
                 establish and maintain a long-term presence on target networks. When we
                 followed up on the issues, TISS developed a strategic plan to address the report’s
                 findings. Although the strategic plan did not include an authoritative corrective
                 action plan, we considered the strategic plan a managerial approach to remediate
                 known weaknesses. TISS had not created POA&Ms in EPA’s ASSERT system to
                 manage the document’s findings and to ensure accountability is assigned.

                 Appendix B identifies the documents’ findings and recommendations that remain
                 unaddressed.




12-P-0899                                                                                                    10
National Computer Center Does Not Follow Up on Internally
Conducted Network Scans
            OEI does not require system owners to provide a response on how they addressed
            vulnerabilities identified during monthly network testing. Further, OEI does not
            follow up with system owners to confirm that identified vulnerabilities have been
            addressed. Office of Management and Budget’s Circular A-123 requires managers
            to take timely and effective action to correct deficiencies identified by a variety of
            sources. The circular also states that correcting deficiencies is an integral part of
            management accountability and must be considered a priority by the Agency.
            National Computer Center (NCC) staff stated that it was not their responsibility to
            ensure that the vulnerabilities are addressed. Therefore, there is no assurance that
            identified vulnerabilities are being addressed or monitored, which could expose
            EPA’s network to security attacks.

            In EPA OIG Report No. 2005-P-00011, Security Configuration and Monitoring of
            EPA’s Remote Access Methods Need Improvement, dated March 22, 2005, we
            recommended that OTOP develop and implement a security-monitoring program
            that includes testing all servers. Further, in EPA OIG Report No. 09-P-0240,
            Project Delays Prevent EPA from Implementing an Agency-wide Information
            Security Vulnerability Management Program, dated September 21, 2009, we
            concluded that EPA still had not established an Agency-wide network security
            monitoring program because EPA did not take alternative action when the
            monitoring project experienced significant delays.

            We looked at the NCC Foundstone tool during the conduct of this audit and found
            that OEI’s NCC staff conduct monthly vulnerability scans of EPA’s network and
            forward scan results to the appropriate contacts for action. However, NCC staff do
            not follow up nor require system owners to respond so that NCC can confirm that
            scan results have been addressed. NCC staff stated they provide the tools and the
            support but regional and program office staff are responsible for taking action.
            NCC staff does not rescan those servers at a later date to confirm vulnerabilities
            were remediated. We made our initial recommendation in 2005 but an EPA-wide
            vulnerability management and remediation process is still not in place. Therefore,
            there is no assurance that EPA’s information security staff is remediating
            vulnerabilities in a timely manner, and such vulnerabilities could expose EPA’s
            assets to unauthorized access and potential harm to the network.




12-P-0899                                                                                      11
Recommendations
            We recommend that the Assistant Administrator for Environmental Information:

               5. Issue a memorandum to OEI officials requiring the Senior Agency
                  Information Security Officer be the addressee on all internal security
                  reports and reviews in order to ensure identified weaknesses are recorded
                  within the Agency’s security weakness tracking system.

               6. Create POA&Ms for all recommendations applicable to Agency internal
                  reports identified in Appendix B.

               7. Develop and implement a process to verify that identified weaknesses in
                  Appendix B are addressed and decisions are documented on actions taken.

               8. Develop and implement a process to verify that regions and program
                  office staff address vulnerabilities from NCC scans.

Agency Comments and OIG Evaluation
            OEI officials concurred with recommendations 6 through 8. Recommendation 5
            originally required a written appointment of a central point of contact for tracking
            the completion of weaknesses discovered during internal assessments. In its
            response, OEI stated that the Agency’s Senior Agency Information Security
            Officer is appointed as the central Agency contact for tracking remediation action.
            However, our audit work disclosed that the points of contact were difficult to
            obtain and POA&Ms were not created. We modified our recommendation to state
            that the Assistant Administrator for Environmental Information and Chief
            Information Officer should direct his staff to provide reports on all security
            reports and reviews to the Senior Agency Information Security Officer. The
            Agency agreed to the modified recommendation. OEI officials concurred with
            and agreed to take corrective actions to address all recommendations. We believe
            these corrective actions, when implemented, will address the intent of our
            recommendations. OEI officials also listed “TBD” (to be determined) for planned
            completion dates for recommendations 5, 6, and 7. We list the status of these
            recommendations as unresolved. In our transmittal memorandum, we request OEI
            officials to provide milestone dates in the 90-day response.

            Appendix C contains the Agency’s complete response to the report.


                




12-P-0899                                                                                    12
                               Status of Recommendations and
                                 Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                    Planned
 Rec.     Page                                                                                                     Completion   Claimed    Agreed-To
 No.       No.                           Subject                           Status1        Action Official             Date      Amount      Amount

   1        6     Develop and implement a strategy with milestone            O       Assistant Administrator for    12/31/13
                  dates to incorporate EPA’s headquarters program                    Environmental Information
                  offices within the SIEM environment.

   2        6     Develop and implement a formal training program            O       Assistant Administrator for    12/31/12
                  that will meet EPA’s information security staff needs              Environmental Information
                  in using the SIEM tool. The training program should
                  include a user guide on using the SIEM tool to
                  generate reports and developing customized reports
                  for filtering known and suspicious events.

   3        8     Develop a policy or revise the Agency’s Information        U       Assistant Administrator for      TBD
                  Security Policy to comply with NIST SP 800-92. This                Environmental Information
                  policy should include, but not be limited to, defining
                  log storage and disposal requirements and roles and
                  responsibilities for the log management
                  infrastructure.

   4        8     Finalize the SIEM tool’s “Enterprise Reference             O       Assistant Administrator for    3/29/13
                  Guide.”                                                            Environmental Information

   5       12     Issue a memorandum to OEI officials requiring the          U       Assistant Administrator for      TBD
                  Senior Agency Information Officer be the addressee                 Environmental Information
                  on all internal security reports and reviews in order
                  to ensure identified weaknesses are recorded within
                  the Agency’s security weakness tracking system.

   6       12     Create POA&Ms for all recommendations applicable t         U       Assistant Administrator for      TBD
                  Agency internal reports identified in Appendix B.                  Environmental Information

   7       12     Develop and implement a process to verify that             U       Assistant Administrator for      TBD
                  identified weaknesses in Appendix B are addressed                  Environmental Information
                  and decisions are documented on actions taken.

   8       12     Develop and implement a process to verify that             O       Assistant Administrator for    2/15/13
                  regions and program office staff address                           Environmental Information
                  vulnerabilities from NCC scans.




O = recommendation is open with agreed-to corrective actions pending
C = recommendation is closed with all agreed-to actions completed
U = recommendation is unresolved with resolution efforts in progress




12-P-0899                                                                                                                                         13
                                                                                      Appendix A

                        EPA Monitoring Tools Reviewed
OEI manages EPA’s IT infrastructure, supports EPA’s information systems and information
products, and develops strategies for information security. OEI management provided the OIG
with a briefing on security tools used to secure the Agency’s network infrastructure. The OIG
also contacted EPA’s regional information security community to determine whether they were
using additional security tools to combat cyber-security events and monitor network traffic. The
OIG learned that EPA regional offices in Kansas City, Kansas (Region 7), and Denver, Colorado
(Region 8) were using log management tools to monitor network traffic. The OIG met with EPA
personnel who managed those security tools to obtain information on each tool’s functionalities,
cost, and usage.

Table A-1 lists those security tools the OIG reviewed during this audit. The cost of each tool
represents funds expended during fiscal years 2010 and 2011 to cover hardware and software
requirements, training needs, annual maintenance and licenses.

Table A-1: Security tools managed by EPA offices/regions visited
 Office\Region                          Functionality                                      Cost
 Office of Environmental Information/   Security incident and event management tool     $ 1,766,923
 Office of Technology Operations        eDiscovery and Forensic                             974,495
 and Planning
                                        Virus protection software                           614,547
                                        Patch management tool                               453,166
                                        Netflow analyzer software                            20,989
                                        Asset management tool                               268,802
 Region 7 (Kansas City Office)          Security audit log software                           1,665
 Region 8 (Denver Office)               Security incident and event management tool          42,032
 Total                                                                                 $ 4,142,619
Source: OIG analysis.

NCC personnel indicated that EPA’s perimeter enforcement and web-filtering capabilities are
managed through a U.S. General Services Administration services contract as part of a federal
“cloud environment.” EPA indicated that associated cost for this managed service is
administered by the U.S. General Services Administration and costs specific to EPA could not be
provided.




12-P-0899                                                                                        14
                                                                                   Appendix B

                   Unaddressed Recommendations
During 2009 and 2010, EPA conducted three separate internal reviews of the Agency’s
information security program: (1) Clampi Infection Lessons Learned, (2) CERT at Carnegie
Mellon University Software Engineering Institute, and (3) Booz Allen Hamilton document for
Mitigation of Advanced Persistent Threats.

OEI manages EPA’s IT infrastructure, supporting the Agency’s information systems and
information products. OTOP also develops and implements IT policies, plans, and strategies for
information security, investment management, and workforce training and development. TISS,
within OTOP, is responsible for managing the Agency’s IT security program; including IT
security planning, program management, evaluation of effectiveness, support to other programs,
support for policy and procedure development, and communications. TISS manages, oversees,
and communicates the Agency’s IT security program by providing a framework, tools, priorities
and overall direction for EPA employees and management.

Background information on each document and the recommendations that remain unaddressed
based on our audit work is detailed below.

Clampi Infection Lessons Learned
On July 10, 2009, EPA was infected with what appeared to be a Trojan horse virus. At 1:40 p.m.,
an initial report was received from Region 5 indicating 15 systems were infected. Seven minutes
later, by 1:47 p.m., the infection was confirmed in Nevada, Virginia, North Carolina, Florida,
and other locations across the nation. The infections were later identified as new variants of the
Clampi Trojan. With the help of several stakeholders who were involved during this event, EPA
created a lessons learned document in response to this event titled “Clampi Infection Lessons
Learned” dated August 1, 2009. The document lists findings on what went well and areas of
concern during the response to this event. Recommendations were addressed to the Computer
Security Incident Response Capability (CSIRC) Center, Enterprise Desktop Solutions Division,
Customer Technology Solutions (CTS), EPA Call Center, and the Senior Agency Information
Security Officer.




12-P-0899                                                                                      15
Table B-1: Findings and corresponding recommendations not addressed
                                                                                             Responsible office
 Finding(s) and applicable recommendation(s)                                                 for remediation
 An ancillary finding to temporarily blocking webmail was that users are circumventing       TISS
 security controls and utilizing personal webmail to send and receive email on behalf of
 EPA. For example, in one ticket a user complained that she was no longer able to
 view her EPA mail on her iPhone because yahoo mail was blocked. Aside from a
 potential infection vector, sensitive EPA data could be lost, viewed, or stolen, should a
 user’s personal account be compromised or personal device lost.
 1. Set policy disallowing the use of personal webmail to conduct business on behalf
     of EPA.
 2. Allow the viewing of personal webmail but filter the download of attachments.
 3. If the fore-mentioned recommendations are operationally impossible, route third
    party webmail traffic through the demilitarized zone where it can be monitored for
    data leakage.
 While the infection was ongoing, CSIRC struggled to locate the correct individuals for      CSIRC
 information. For example, we were unable to find the right person to provide a report
 on CTS Anti-Virus definitions.
 1. Get an org. chart quarterly from CTS and ISOs.
 Information briefly circulated indicating the Clampi Trojan was spreading via USB           Enterprise Desktop
 thumb drives. Although this was later proven false, the fact that EPA is vulnerable to      Solutions Division
 infection from flash drives is true.
 1. Disable autorun and autoplay. 2.Force virus scans on removable media.
 EPA Call Center was overwhelmed with the influx of tickets. As the Clampi event             EPA Call Center
 wound to a close, CSIRC discovered events reported by CTS to the EPA Call Center
 that were never entered into Remedy by Apptis.
 1. With two separate Remedy systems maintained and owned by separate vendors,
    confusion and duplicate tickets are a weekly occurrence.
 2. We recommend automation between the systems or converging the two into one.
                                                                                             Senior Agency
 Several Regions/Program Offices were not represented on the emergency calls.                Information Security
 1. When a region/PO is unaccounted for during a national call, involve the IRM              Officer
    Branch Chiefs. ISOs stated they had no insight or influence over the CTS systems
    under their area of responsibility. Local site ISOs expressed displeasure that CTS
    didn’t communicate with them.
 2. Local ISOs need insight into all assets at their site. We recommend a dashboard
    for use by local ISOs with rollup to Primary ISOs for insight into their area of
    responsibility.
 3. The ISOs role in security events needs to be more clearly defined. There is some
    confusion about CTS/CSIRC communicating directly with each other versus the
    ISO. ISOs without Blackberries did not find out about the Clampi infection until the
    next Monday.
 4. Issue Blackberries to all ISOs. ISOs relying on contractor support ran into a
    problem where contractors were not approved to work overtime.
 5. Set aside funding for emergency operations. ISOs complained the NSA toolkit was
    not useful and was introduced at the wrong time.
 6. Continue the phased implementation and encourage ISOs to become familiar with
    the toolkit and its use.
Source: Clampi Infection Lessons Learned Document.




12-P-0899                                                                                                           16
Carnegie Mellon Report
EPA entered into an engagement with the CERT Program at Carnegie Mellon University
Software Engineering Institute to perform an appraisal of EPA’s information security program
based on CERT Resiliency Engineering Framework. Carnegie Mellon’s report, CERT Resiliency
Engineering Framework, Environmental Protection Agency, August 2009, identified several
areas of improvements in EPA’s incident response and handling program. Recommendations in
Chapter 4 apply to the EPA’s information security program as a whole.

Table B-2: Findings and corresponding recommendations not addressed
                                                                                             Responsible office
 Finding/recommendation                                                                      for remediation
                         Chapter 4 Appraisal Findings: Global Strengths and Weaknesses
 1.   There is a dependence on heroic actions by individuals.                                OTOP
 2.   Governance for information security activities is generally missing; however,
      Technology Management activities are receiving some governance from the
      Quality and Information Council/Quality Technology Subcommittee.
 3.   There is a focus on tools as opposed to (and sometimes in conflict with) a focus
      on sound process and procedures.
 4.   Information security program activities tend to be reactively evolved rather than
      proactively planned.
 5.   The information security program is largely compliance-focused as opposed to
      requirements' driven.
 6.   Information security metrics activities are lacking.
 7.   People are accepting information security risks on behalf of the Agency who may
      not have the authority, necessary understanding or willingness to do so.
 8.   There is a heavy reliance on contractors to perform critical functions in support of
      the Agency information security program without clear measures in place to
      ensure that program knowledge is sustainable.
 9.   There is a lack of awareness and appreciation of information security activities in
      support of the Agency's business and mission.
 10. Manipulation of self-reported data has made internal and external compliance
     reports unreliable indicators of the Agency's information security posture.
 11. Agency management's focus on generating favorable internal and external
     reports has resulted in coaching respondents to adjust self-reported data to the
     detriment of the Agency's information security posture.
 12. Quality and validity of self-reported data is questionable and makes the
     enforcement and validation process difficult.
 13. Data calls to support compliance are numerous and often redundant.
 14. IT security money is allocated across Agency to support IT security
     responsibilities.
 15. Key information security roles (for example ISO, PO, lRO, ISSO, IMO, SA, and
     System owner) and their associated responsibilities are not well-defined, well-
     understood commonly captured in position descriptions, or well-aligned with
     training program.
 16. Agency management support for a consistent and repeatable information security
     program and process is lacking - current focus is reactive and compliance-driven.
 17. Enforcement actions related to information security are not enacted by Agency
     management.




12-P-0899                                                                                                         17
                                                                                         Responsible office
 Finding/recommendation                                                                  for remediation

             Chapter 7 Appraisal Findings: Incident Management and Control (IMC) Capability area
 1.   EPA seemed unclear on the processes that were to be followed relative to closing   TISS
      incidents including any lessons learned.
 2.   There was not sufficient evidence to suggest that lessons learned were being
      translated into actions to better protect Agency assets.
 3.   There is no consistent or formalized process to identify recurring problems;
      examine root causes; or develop solutions for these problems with the goal of
      preventing future, similar incidents.
                     Chapter 14 Recommendations: Prioritize and Address Capability Gaps
 1.   Establish the internal procedures for incident management and control.             TISS
 2.   Establish procedures and criteria for the regular performance of post-incident
      reviews.
 3.   Establish a link between the incident management and control process and the
      problems management process.
 4.   Establish a process to improve asset protection and continuity strategies in
      response to lesson learned from managing incidents.
 5.   Establish governance over the planning and performance of the incident
      management and control process.
 6.   Establish and maintain the plan for performing the incident management and
      control process.
 7.   Evaluate the sufficiency of incident management and control resources, and
      request resource changes as necessary.
 8.   Formally assign responsibility and authority for performing the incident
      management and control process.
 9.   Improve monitoring of the incident management and control process.
 10. Use appraisals or audits to objectively evaluate the adherence of the incident
     management and control activities to the process description, standards, and
     procedures.
Source: Carnegie Mellon report.




12-P-0899                                                                                                     18
Booz Allen Hamilton -Document
In August 2010, Booz Allen Hamilton was tasked to identify immediate and/or stop gap
measures to protect EPA systems and data. Booz Allen Hamilton issued a document on
November 5, 2010, on EPA’s ability to mitigate Advanced Persistent Threats. Booz Allen
Hamilton concluded that EPA had procedural and operational weaknesses preventing EPA from
successfully mitigating Advanced Persistent Threats. Procedural weaknesses included areas such
as governance, policy, procedures and oversight. Operational weaknesses included
recommendations for implementing a risk mitigation program, sharing of forensic images by
OIG, expanding CSIRC’s mission and capabilities to address Advanced Persistent Threats across
the enterprise, and obtaining/installing an enterprise event log aggregation/correlation tool.
Table B-3: Findings and corresponding recommendations not addressed
                                                                                             Responsible office
 Finding/recommendation                                                                      for remediation
                                                Procedural Findings
 Ongoing senior management buy-in and support for the IT security program is                 TISS
 essential
 1. Identify senior management level of risk tolerance for IT Information Management         Senior Agency
     assets.                                                                                 Information Security
                                                                                             Officer
 Strong governance around the IT security program is essential
 2. Develop a formal agency governance program to oversee all IT security actions.

 IT security policies and procedures must be updated and current systems security
 verified
 3. Perform an immediate review of all EPA IT security policies and procedures.
 4. Based on senior management’s risk tolerance, prioritize IT Information
       Management assets and validate security documentation.
 EPA is facing a challenge in its IT security environment that requires it to become
 more proactive in its actions, rather than reactive. Attackers will always be looking for
 the next gap.
 5. Plan an Agency-wide cyber security program to identify and prioritize risks that
      impact the IT security program and design a risk management program across
      the offices and regions.
 6. Include formal assessment and testing requirements in IT Information
      Management procurements to minimize introduction of new vulnerabilities and
      threats.
 EPA should consider innovative ways to improve IT security situational awareness.
 7. Design a security awareness program that will more effectively drive the message
    to users.
 In accordance with NIST SP 800-39, EPA must adopt automated tools to achieve
 continuous monitoring for threats.
 8. EPA needs to embrace a broader risk management perspective.
 EPA needs clear standards for training, roles, and responsibilities for IT Information
 Management security personnel.
 9. Design a security awareness program that will more effectively drive the message
     to users. Consider the “think before you click” campaign concept.
 10. Identify those who are most likely to be targeted based on position and access to
     information. Use available intelligence to identify what information is being
     targeted. Develop a security awareness program that is aimed specifically to this
     audience to promote their sensitization and awareness of accountability.




12-P-0899                                                                                                           19
                                                                                               Responsible office
 Finding/recommendation                                                                        for remediation
 Actions by law enforcement or intelligence could act as a constraint to Incident              TISS
 Response actions, negatively impacting security or services.
 11. Identify law enforcement and intelligence activity as a risk and engage in planning       Senior Agency
      to determine a mitigation plan. Engage law enforcement and intelligence agencies         Information Security
      in the mitigation planning.                                                              Officer
                                                Operational Findings
 EPA does not have a risk mitigation program.                                                  TISS
 1. Deployment of specialized incident response tools as one element of the Proactive
    Threat Identification program.
 2. Centralize efforts to identify all assets currently within the EPA enterprise and verify
    each has appropriate accreditation.
 3. Designate personnel with the specific responsibility to identify and interact with
    those sources most likely to provide EPA with relevant data in the fastest time
    possible.
 EPA’s best practices to secure against IT threats are known. Mitigation, not
 elimination, can be achieved through the IT security program.
 4. Focus the IT security program on detection, containment and eradication of threats.
 EPA is highly vulnerable to targeted/spear-phishing email.
 5. EPA should consider a risk assessment related to information positioned in the
    public environment and assess the effects of the release, including the potential of
    creating targets for attackers within the Agency.
 CSIRC cannot readily determine as a compromised system is identified whether it
 belongs to a VIP or Senior Executive Staff.
 6. Assess all users and identify those accounts most frequently in possession of, in
    communication with, that information EPA can’t afford to lose.
 The EPA CSIRC program has been effective within its original function but is not
 capable of dealing with highly sophisticated Advanced Persistent Threat.
 7. Expand CSIRC’s mission and capabilities to address Advanced Persistent Threats
    across the enterprise. Obtain and install an enterprise event log aggregation/
    correlation tool.
 Due to delegation of roles, all forensic images have been obtained by OIG and                 TISS
 analysis/reporting is maintained close-hold.
 8. The OIG should be encouraged to share that information that will improve security
    and not impact ongoing investigations. If copies of their images are not made
    available, the Agency should perform its own acquisition and forensic examination.
Source: Booz Allen Hamilton report.




12-P-0899                                                                                                             20
                                                                               Appendix C

                 Agency Response to Draft Report


                                         9/06/2012

MEMORANDUM

SUBJECT:      OEI’s Response to OIG’s Draft Report – Improvements Needed in
              EPA’s Network Security Monitoring Program (OMS-FY11-0005)

FROM:         Malcolm D. Jackson
              Assistant Administrator and Chief Information Officer

TO:           Rudolph M. Brevard
              Director, Information Resources Management Assessments

In response to the draft Audit Report, “Improvements Needed in EPA’s Network Security
Monitoring Program” (OMS-FY11-0005), the Office of Environmental Information is pleased to
provide you with our response to the OIG recommendations found in the report.

If you have any questions, please contact OEI Audit Follow-Up Coordinator, Scott Dockum at
202-566-1914.

Attachment


cc:    James McDonald
       Robbie Young
       Scott Dockum
       Elizabeth Braziel




12-P-0899                                                                                    21
                                         Office of Environmental Information / OTOP
                                                    Corrective Action Plan

Auditing Group: OIG                                     Audit Title: Improvements Needed in EPA’s Network Security Monitoring Program
Audit No.: OMS-FY11-0005
Report Date: August 7, 2012                      OEI Leads and Phone: OTOP - Anne Mangiafico 202-564-9483; SAISO – Robert McKinney
OEI Lead Offices: OTOP & SAISO                   (202) 564-0921



   Recommendation          Corrective Action       Planned         Status             POC for            Comments           Concur
                                                  Completion                      Recommendation                            Yes/No
                                                     Date
1: Develop and            TISS will refine the     12/31/13  In Progress -        OTOP/TISS Lee       There are multiple      Yes
implement a strategy      project plan to reflect            Implementing         Kelly               Program Offices
with milestone dates to   a thorough strategy for            Program Office                           already in
incorporate EPA’s         incorporating Program              devices into                             ArcSight. Along
headquarters program      Offices into the SIEM              ArcSight is                              with the Regional
offices within the SIEM   environment. This                  currently                                offices, other
environment.              strategy will include              underway as part                         Program Offices
                          milestone dates for all            of the overall                           are in various
                          Program Offices not                strategy. A                              stages (Initial
                          already in SIEM.                   project plan                             contact;
                                                             exists that lists                        Information
                                                             each Program                             Gathering;
                                                             Office.                                  Testing; etc.)
                                                                                                      regarding
                                                                                                      implementation.
2: Develop and            TISS will further          12/31/12   In Progress – A   OTOP/TISS Lee       Training on             Yes
implement a formal        codify the training                   user guide has    Kelly               ArcSight is
training program that     program for ArcSight                  been developed                        accomplished in
will meet EPA’s           by documenting                        and made                              various methods.
information security      evidence of training                  available to                          (1) Upon being


     12-P-0899                                                                                                                 22
staff needs in using the    for users and          users. Efforts      granted access to
SIEM tool. The training     formalizing training   moving forward      ArcSight a one-on-
program should include      requirements for       will focus on       one session is
a user guide on using the   ArcSight access.       refining the user   scheduled with the
SIEM tool to generate                              guide and           user to go over the
reports and developing                             formalizing the     interface,
customized reports for                             training            basic/advanced
filtering known and                                program.            searches, reports
suspicious events.                                                     (default and
                                                                       custom) and
                                                                       queries among
                                                                       other items. This
                                                                       session usually
                                                                       lasts between 60-
                                                                       90 minutes; (2)
                                                                       Hewlett Packard
                                                                       (ArcSight
                                                                       manufacturer) also
                                                                       provides training
                                                                       courses on
                                                                       ArcSight on a fee-
                                                                       based schedule
                                                                       available from
                                                                       their website. (3)
                                                                       At the bi-weekly
                                                                       ArcSight user
                                                                       group meeting
                                                                       demonstrations are
                                                                       held on how to
                                                                       perform certain
                                                                       functions and the
                                                                       users have an
                                                                       opportunity to ask



     12-P-0899                                                                               23
                                                                                            questions on that
                                                                                            topic. A user guide
                                                                                            that includes
                                                                                            chapters on reports
                                                                                            and searches has
                                                                                            been posted to the
                                                                                            EPA SIEM
                                                                                            collaboration page.
                                                                                            This information
                                                                                            was announced at
                                                                                            the last user group
                                                                                            meeting.
3: Develop a policy or     The SAISO will            TBD                                                          Yes
revise the Agency’s        review the Agency’s
Information Security       Information Security
Policy to comply with      Policy/Procedure to
NIST SP 800-92. This       comply with NIST SP
policy should include,     800-92 and revise if
but not be limited to,     necessary.
defining log storage and
disposal requirements
and roles and
responsibilities for the
log management
infrastructure.
4: Finalize the SIEM       The Enterprise           3/29/13   In Progress   OTOP/TISS Lee                         Yes
tool’s “Enterprise         Reference Guide will                             Kelly
Reference Guide.”          be reviewed to
                           determine gaps
                           between its guidance
                           and the current status
                           of the SIEM project.
                           The Enterprise


     12-P-0899                                                                                                     24
                           Reference Guide will
                           be updated and
                           finalized, and
                           referenced in other
                           TISS/CSIRC
                           operating procedures
                           if necessary.
5: Appoint in writing a    The SAISO is            TBD   No
central point of contact   currently responsible
for tracking the           in accordance with
completion of              FISMA as the central
weaknesses discovered      point of contact for
during internal            tracking weaknesses.
assessments.               OTOP/NCC will
                           appoint in writing a
                           central point of
                           contact for tracking
                           the completion of
                           weakness discovered
                           during internal
                           assessments.
6: Create POA&Ms for       The SAISO will create   TBD   Yes
all recommendations        POA&Ms for all
applicable to Agency       applicable
internal reports           recommendations to
identified in Appendix     Agency internal
B.                         reports identified in
                           Appendix B.
7: Develop and             The SAISO will          TBD   Yes
implement a process to     develop an enhanced
verify that identified     process model for the
weaknesses in Appendix     full life cycle
B are addressed and        management of Plans


     12-P-0899                                            25
decisions are             of Actions and
documented on actions     Milestones (POA&M)
taken.                    resulting from
                          identified weaknesses
                          of the Agency
                          Information Security
                          Program.

8: Develop and            OTOP/NCC will             2/15/2013   On-going   OTOP/NCC      Review of new    Yes
implement a process to    revise the agency’s                              John Gibson   EPA Infosec
verify that regions and   vulnerability                                                  Policy will be
program office staff      management standard                                            required
address vulnerabilities   operating procedure
from NCC scans.           (SOP) to incorporate a
                          verification process to
                          ensure regions and
                          program offices are
                          appropriately
                          addressing
                          vulnerabilities from
                          NCC scans. The
                          revised SOP is
                          contingent upon OEI
                          CIO
                          approval/signature of
                          the “Information
                          Security Interim Roles
                          and Responsibilities
                          Procedures” document
                          currently in process.




     12-P-0899                                                                                             26
     During the OIG exit conference September 12, 2012, it was agreed that recommendation # 5 was to be amended as follows.

     5 (Amended)            SIASO will issue a       TBD     Ongoing           SAISO                                          Yes
       New text             memo to OEI officials.

Issue a memorandum to
OEI officials requiring
the SAISO be the
addressee on all internal
security reports and
reviews in order to
ensure identified
weaknesses are recorded
within the Agency’s
security weakness
tracking system.




     12-P-0899                                                                                                                 27
                                                                                Appendix D

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Senior Agency Information Security Officer, Office of Environmental Information
Director, Office of Technology Operations and Planning, Office of Environmental Information
Acting Director, Enterprise Desktop Solutions Division, Office of Environmental Information
Director, Technology and Information Security Staff, Office of Environmental Information
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Technology Operations and Planning,
       Office of Environmental Information
Audit Follow-Up Coordinator, Technology and Information Security Staff,
       Office of Environmental Information




12-P-0899                                                                                     28
